           Office of Inspector General




January 9, 2004

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

DONNA M. PEAK
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT:         Management Advisory – Realty Asset Management Program
                 (Report Number CA-MA-04-002)

This report presents an interim issue concerning the Postal Service’s process
for identifying and reporting excess facilities and vacant space (Project
Number 03XG015CA000). This issue was identified during our self-initiated
survey of the Realty Asset Management Program.

                                         Background
The Postal Service is one of America’s largest owners, developers, and managers of
real estate. Its inventory includes over 37,500 buildings with more than 318 million
square feet of owned and leased space.

The Realty Asset Management organization, administered from Facilities headquarters,
provides internal expertise to identify, analyze, and maximize the return on underutilized
and excess real property assets controlled by the Postal Service. It generates income
from real estate assets by developing Postal Service real property to its highest and
best use, outleasing or subleasing excess Postal Service space to government and
public tenants, and selling excess real property. During our review, Realty Asset
Management was analyzing over 1,600 properties for potential sale, lease, or other
disposition.

                              Objective, Scope, and Methodology

The objective of this portion of the survey was to determine whether excess facilities
and vacant space were properly identified and reported. To accomplish the objective,

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Realty Asset Management Program                                                 CA-MA-04-002



we interviewed Postal Service Facilities headquarters officials and Realty Asset
Management personnel at the Denver Facilities Service Office, and reviewed Postal
Service policies, procedures, and related internal controls. We also contacted
13 district administrative service offices and 5 area Finance managers.

This review was conducted from March 2003 through January 2004 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our conclusions and observations with appropriate management officials
and included their comments, where appropriate.

                                       Prior Audit Coverage
Disposal of Excess Real Property (Report Number CA-AR-02-002, dated January 28,
2002), identified 30 properties purchased for $45 million that had not been developed
and utilized–one for almost 18 years. The Postal Service did not use these properties,
in part, because operational requirements changed and budget constraints prevented
development of the property. The audit concluded that efficient and economical
disposal of unused property could provide additional financial resources to the Postal
Service. Accordingly, Postal Service management agreed to have area offices review
all undeveloped and unused real properties and advise Realty Asset Management of
those properties that should be disposed.

                                                  Results
Identifying and Reporting Excess Facilities and Vacant Space Needed
Improvement

We found the process for identifying and reporting excess facilities and vacant space
needed improvement. Postal Service area officials advised us they did not annually
review their inventory of owned property because they were unaware of the
requirement. In addition, a requirement did not exist for area officials to identify vacant
leased space, although one existed to report it. As a result, the Postal Service may not
have been maximizing its return on these assets.

Area officials and applicable facilities personnel were required to review the inventory of
Postal Service owned property, at least annually, to identify any excess vacant
properties.1 In addition, area officials or others with authority to approve property as
excess were responsible for reporting identified vacant properties to Realty Asset
Management, as well as, providing funding support for disposal.2 Furthermore,
although there was no specific requirement in place to identify excess vacant space,
there was a requirement that area and district officials and postmasters report all excess
space in Postal Service owned or leased buildings.3
1
  Administrative Support Manual, ASM 13, Section 517.11.
2
  Administrative Support Manual, ASM 13, Section 517.121 and Section 517.122.
3
  Administrative Support Manual, ASM 13, Section 517.34.



                                                       2
Realty Asset Management Program                                               CA-MA-04-002



Realty Asset Management personnel told us they did not believe all excess vacant
properties and space were always identified and reported, even though Postal Service
requirements were in place. Interviews with Realty Asset Management personnel and
contacts with 18 area and district officials revealed that an annual review of Postal
Service owned property was not performed. In fact, the Postal Service area and district
officials we contacted were unaware of any formal requirement to annually identify
excess owned property. Although Realty Asset Management personnel knew of the
reporting requirement, they did not initiate proactive measures to help identify excess
properties. Furthermore, there was no requirement for area officials to report the results
of annual reviews when no excess property had been identified.

Discussions with Realty Asset Management personnel and a review of correspondence
from two districts found the areas and districts were sometimes hesitant to identify
excess facilities and vacant space in order to hedge against potential future
requirements. Realty Asset Management personnel also stated area and district
officials were not encouraged to report excess property and were sometimes reluctant
to report properties because the area would be responsible for associated disposal
costs. According to Realty Asset Management personnel, the average cost to dispose
of a property was approximately $10,000, not including potential environmental costs.

Improving the identification and subsequent reporting of excess facilities and vacant
space to Realty Asset Management will provide the Postal Service with opportunities to
maximize the return of these assets.

Recommendations

We recommend the senior vice president, Operations, in coordination with the
vice president, Facilities:

   1. Communicate and enforce existing annual requirements to review and identify
      any excess Postal Service owned property with appropriate area and facilities
      personnel.

   2. Enhance reporting requirements of annual reviews to include negative replies.

   3. Develop a process to identify excess space on a regular basis.

Management’s Comments

Management agreed with recommendations 1, 2, and 3. Management stated the new
national prioritization process and the outcome of the network realignment effort will
help clarify where excess space exists and where new space is needed. Also,
beginning in fiscal year 2005, the Postal Service will issue an annual call regarding
vacant and/or excess space and will require a formal response, including negative
replies. This will provide a standard format for annual reporting and a method to submit


                                            3
Realty Asset Management Program                                               CA-MA-04-002



additional excess space as it occurs. In the interim, they will continue to emphasize the
importance of identifying excess space. Management’s comments, in their entirety, are
included in the appendix of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1, 2, and 3.
Management’s actions taken or planned should correct the issues identified in the
report.

Recommendation

We recommend the vice president, Finance, controller, in coordination with the
vice president, Facilities:

   4. Establish and implement a process to encourage identification and reporting of
      excess property and space. For example, consider establishing separate funding
      for disposal costs.

Management’s Comments

Management disagreed with recommendation 4. Management stated a strengthened
process for identifying and reporting excess space is addressed in the first
three recommendations and the Administrative Support Manual provides policies
and procedures to accomplish planning and budgeting of real property disposals.

Evaluation of Management’s Comments

The purpose of recommendation 4 was to encourage area and district officials to report
excess property since they were sometimes reluctant to report properties because they
would be responsible for associated disposal costs. Although management believes
recommendations 1 through 3 are sufficient, we still believe recommendation 4 can
further improve the identification and reporting of excess facilities and vacant space,
thus, increasing opportunities to maximize the return of these assets. However, we do
not plan to take further action on this disagreement.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Lorie Siewert,




                                            4
Realty Asset Management Program                                          CA-MA-04-002



director, Supply Management and Facilities, at (651) 855-5856 or me at
(303) 925-7429.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

Attachment

cc: Patrick R. Donahoe
    Richard J. Strasser, Jr.
    Susan M. Duchek




                                          5
Realty Asset Management Program                     CA-MA-04-002



                  APPENDIX. MANAGEMENT’S COMMENTS




                                  6
Realty Asset Management Program       CA-MA-04-002




                                  7
